HHS/OIG, Audit -"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries in the State of Maryland,"(A-03-02-00004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries in the State of Maryland," (A-03-02-00004)
December 2, 2002
Complete
Text of Report is available in PDF format (426 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Medicare fee-for-service claims paid in Maryland during the 3-year
period of January 1, 1997 through December 31, 1999 were in compliance with Federal regulations and Centers for Medicare & Medicaid
Services (CMS) guidelines.  The State of Maryland was one of 10 states selected for review.  We found 70 percent
of our sample of 100 claims in Maryland were appropriate.  However, two claims totaling $2,328 were unallowable according
to Medicare reimbursement requirements. The claims were submitted on behalf of beneficiaries who were inmates in local
detention centers at the time of service. We have determined these claims to be unallowable because in the absence of third
party coverage, neither the county detention centers nor their health care contractors make any attempt to collect health
care costs from inmates.  We could not determine the allowability of 28 claims totaling $4,133.